No. 19-1101

In the Supreme Court of the United States
CANADA,
Petitioner,
v.
CYNTHIA L. MERLINI,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the First Circuit

CERTIFICATE OF SERVICE

I certify that on March 10, 2020, I caused one copy of the attached motion for an
extension of time to file a brief in opposition to the petition for a writ of certiorari to be
served pursuant to Rule 29.3 by first-class mail, postage prepaid, and by email on:
Simon A. Steel, Esq.
Dentons US, LLP
1900 K Street, NW
Washington, DC 20006
simon.steel@dentons.com
(202) 496-7077
Counsel for the Petitioner.
All parties required to be served have been served.

1

Respectfully submitted,
/s/ Theodore J. Folkman
Theodore J. Folkman
Counsel of Record
Pierce Bainbridge Beck Price & Hecht LLP
One Liberty Square
Boston, MA 02109
(617) 229-5415
tfolkman@piercebainbridge.com
Counsel for the Respondent
Dated: March 10, 2020

2

